U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 5, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jiahao Kuang, et al. v. United States, No. 19-1194
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 30,
2020, and placed on the docket on April 2, 2020. The government’s response is now due, after
three extensions, on October 16, 2020. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including December 15, 2020, within which to file a
response.
This extension is necessary because the government is presently undertaking a review of
whether to retain the policy that is the subject of the petition for a writ of certiorari, and the
government’s decision at the conclusion of that review may moot this litigation. The government
had anticipated completing its review by the end of September 2020, but the government was
unable to obtain all needed information for the review due to effects of the COVID-19 public
health emergency. The government now hopes to complete its review by the end of November
2020.
Counsel for petitioner consents to this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1194
KUANG, JIAHAO, ET AL.
DEPT. OF DEFENSE, ET AL.

IAN HEATH GERSHENGORN
JENNER & BLOCK
1099 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-639-6869
IGERSHENGORN@JENNER.COM
MELISSA ARBUS SHERRY
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
MELISSA.SHERRY@LW.COM

